'*■

«

.if,

No.
3fn tf)c

Supreme Court of tfje fHntteb States!
Abdul Mohammed,
Petitioner,
v.
Prairie State Legal Services Inc. et.al,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the 7th Circuit

APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
October 21, 2020

18

20-2419 Abdul Mohammed v. Prairie State Legal Services,, et al "Order filed"
-> (.CAQ7jClylECFMail@ca7.uscourts.gov <CA07_CMECFMail@ca7.uscourts.gov>
Wed 10/14/2020 10:12 AM
To: aamohammed@hotmail.com <aamohammed@hotmail.com>

***NOTE TO PUBLIC ACCESS USERS*** judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
Seventh Circuit Court of Appeals
Notice of Docket Activity
The following transaction was entered on 10/14/2020 at 10:04:55 AM CDT and filed on 10/14/2020
Case Name:

Abdul Mohammed v. Prairie State Legal Services,, et al

Case Number:

20-2419

Document(s):

Document (s).

Docket Text:
ORDER re: Motion to proceed on the instant appeal in forma pauperis. IT IS ORDERED that the motion for leave to proceed on
appeal in forma pauperis is DENIED. The appellant has not made a potentially meritorious argument that the district court
erred in dismissing his complaint for failure to comply with Federal Rule of Civil Procedure 8. Mohammed's complaint is more
than 500 pages long, and asserts dozens of claims that appear to be either frivolous or levied against defendants who are
immune from suit. This court has previously warned Mohammed that if he continues to engage in abusive litigation practices,
he will be subject to sanctions. See Mohammed v. Alonso, 20-2310 (7th Cir. Oct. 2, 2020). Because Mohammed filed this appeal
and motion before the warning the court will not impose sanctions at this time, but it is highly likely that a filing such as this in
the future would result in sanctions. IT IS FURTHER ORDERED that appellant shall pay the required docketing fee within 14
days, or else this appeal will be dismissed for failure to prosecute pursuant to Circuit Rule 3(b). MWR [17] [7114442] [20-2419]
(AG)
Notice will be electronically mailed to:
Emily Bothfeld, Attorney
Frank B. Garrett, III, Attorney
Christina T. Hansen, Attorney
Mr. Matthew R. Henderson, Attorney
Ms. Rima N. Kapitan, Attorney
Mr. Scott J. Kater, Attorney
Mr. Zubair A. Khan, Attorney
Mr. Stephen A. Kolodziej, Attorney
Mr. Abdul Azeem Mohammed
Christopher S. Wunder, Attorney

The following document(s) are associated with this transaction:
Document Description: Order
Original Filename: /opt/ACECF/live/forms/202419_c7_Order_3J_7114442_AmberGibson.pdf
Electronic Document Stamp:
[STAMP acecfStamp_ID= 1105395651 [Date= 10/14/2020] [FileNumber=7114442-0]
[06e88e87089afb5dfa291b620d8c436194bdf6d3ef528726b8a41b005b896fc07114a389bf4a5df22b5f5f37da45adf09a718618fea
219b029770279d31 bcbOb]]
Recipients:
• Emily Bothfeld. Attorney
• Frank B. Garrett. III. Attorney

App 00] 9

* *

•
•
•
'•

Christina T. Hansen. Attorney
Mr. Matthew R. Henderson. Attorney
Ms. Rima N. Kapitan. Attorney
-Me Scott J. Kater. Attorney

• Mr. Stephen A. Kolodziej. Attorney
• Mr. Abdul Azeem Mohammed
• Christopher S. Wunder. Attorney

App 00|o

Case: 20-2419

-i

Document: 20

Filed: 10/20/2020

Pages: 1

J.IJ,

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
October 20, 2020
Before
DIANE S. SYKES, Chief Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 20-2419

ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
v.
PRAIRIE STATE LEGAL SERVICES, INC., et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 3:20-cv-50133
Northern District of Illinois, Western Division
District Judge John Robert Blakey

The following is before the court:
1.

PETITION FOR REHEARING AND SUGGESTION FOR REHEARING
EN BANC, filed on October 15, 2020, by the pro se appellant.

2.

MOTION FOR EXTENSION OF TIME WITHIN WHICH TO PAY
DOCKETING FEES, filed on October 16, 2020, by the pro se appellant,

IT IS ORDERED that the motion for reconsideration is DENIED.
IT IS FURTHER ORDERED that the motion for extension of time to pay the
docketing fee is GRANTED to the extent that the appellant shall pay the required
docketing by no later than November 12, 2020.

App 0021

